No. 20-8201

IN THE

SUPREME COURT OF THE UNITED STATES

ANDRES ABELINO AYON-BRITO,

Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

I, Geremy C. Kamens, do swear or declare that on this 18th day of August,
2021, as required by Supreme Court Rule 29, I have served the enclosed REPLY
BRIEF IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI on each party
to the above proceeding or that party’s counsel, and on every other person required
to be served, by delivering to Federal Express, for second-day delivery, a package
properly addressed to each of them and containing the above documents.

The names and addresses of those served are as follows:

Solicitor General of the United States
U.S. Department of Justice

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2217

I declare under penalty of perjury that the foregoing is true and correct.
Ce ray bowen s/ah
Geremy C. Kamens

Federal Public Defender
Executed on August 18, 2021
